                                  EVALUATION




 U.S. DEPARTMENT OF THE INTERIOR’S
 UNDERGROUND INJECTION CONTROL
 ACTIVITIES




Report No.: CR-EV-MOA-0006-2012      March 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR


                                                                              MAR 3 1 2014
Memorandum

To:            Rhea Suh
               Assistant Secretary, Policy Management and Budget

               Eileen Sobeck
               Acting Assistant Secretary for Insular Areas

               Michael Black
               Director, Bureau of Indian Affairs

               Lowell Pimley
               Acting Commissioner, Bureau ofReclamation

               Dan Ashe
               Director, U.S. Fish and Wildlife Service

               Jon Jarvis
               Director, National Park Service

               Neil Kornze
               Principal Deputy Direc

From:          Mary L. Kendall
               Deputy Inspector Gener

Subject:       Evaluation Report - U.S. Department of the Interior's Underground Injection
               Control Activities
               Report No. CR-EV-MOA-0006-2012

        This memorandum transmits the findings of our evaluation of the U.S. Department of the
Interior's (Department) underground injection control (UIC) activities. Our objective was to
evaluate the Department's effectiveness in managing the U.S. Environmental Protection
Agency' s (EPA' s) six classes of underground injection control wells. During our fieldwork, we
narrowed our scope to focus on UIC Class V wells, generally shallow gravity drained waste
wells, due to their number and their possible impact on groundwater.

        We found that weaknesses in the management ofUIC Class V wells put underground
sources of drinking water at risk. Specifically, we found that wells banned by EPA and identified
for closure in 2005 were still being operated on lands managed by the Department. Such
noncompliance with Federal regulations also puts the Government at risk of failing to fulfill


                               Office of Inspector General I Washington, DC
Federal regulations. Overall, we found no comprehensive guidance and little understanding of
UIC activities throughout much of the Department.

       Our report contains seven recommendations that should help the Department and its
bureaus improve managing Class V wells, fully comply with Federal regulations, and protect
underground sources of drinking water. We believe that if the Department implements our
recommendations, the UIC program will become more effective.

       Based on management’s response:

        We consider recommendations 1, 2, and 7 resolved but not implemented, and we will
refer these recommendations to the Assistant Secretary for Policy, Management and Budget to
track implementation (see Appendix 2).

       For the Bureau of Indian Affairs we consider recommendations 3, 4, 5, and 6 to be
resolved and implemented with no further action required (see Appendix 2)

        For the Bureau of Land Management, Bureau of Reclamation, and the National Parks
Service we consider recommendations 3, 4, 5, and 6 resolved but not implemented, and we will
refer these recommendations to the Assistant Secretary for Policy, Management and Budget to
track implementation (see Appendix 2).

        For The Fish and Wildlife Service (FWS) we consider recommendations 3, 4, and 5
resolved but not implemented, and we will refer these recommendations to the Assistant
Secretary for Policy, Management and Budget to track implementation (see Appendix 2). For
recommendation 6 to FWS we consider it unresolved and encourage FWS to continue to identify
its Class V wells and close those that are identified as banned.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

      If you have any questions about this report, please do not hesitate to contact me at 202-
208-5745.




                                                                                                  2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 4
   Improving Guidance ............................................................................................ 4
   Tracking Class V Wells....................................................................................... 6
   Compliance with EPA’s Reporting Requirements .............................................. 7
   Closing Banned Wells ......................................................................................... 8

Conclusion and Recommendations ....................................................................... 11
   Conclusion......................................................................................................... 11
   Recommendations ............................................................................................. 11

Appendix 1: Scope and Methodology................................................................... 18
   Scope ................................................................................................................. 18
   Methodology ..................................................................................................... 18

Appendix 2: Bureaus’ Responses to Draft Report ................................................ 19

Appendix 3: Status of Recommendations ............................................................ 39
Results in Brief
The U.S. Geological Survey estimated in 2013, “more than 100 million people in
the United States, about 35 percent of the population—received their drinking
water from public groundwater systems.” The Safe Drinking Water Act, passed in
1974, sought to protect drinking water by establishing the Underground Injection
Control (UIC) Program in the Environmental Protection Agency (EPA). The UIC
Program, as administered by the EPA, contains regulations for injection wells to
prevent endangering drinking water sources.

The U.S. Department of the Interior (Department) is tasked with managing and
protecting resources on Federal and Indian lands, including underground sources
of drinking water. It must meet Federal standards of the Safe Drinking Water Act
and subsequent EPA regulations. With hundreds of thousands of acres under the
management of the Department’s bureaus, the possible impact of non-compliance
with EPA’s safe drinking water regulations is significant.

We found several issues with Class V injection wells (shallow gravity drained
wells), one of six categories defined in EPA’s regulations that could potentially
threaten sources of underground drinking water.

First, the Department has no overarching guidance or policy to assist bureaus in
complying with EPA’s regulations concerning Class V injection wells. This has
led to a patchwork of inconsistent or nonexistent policies at the bureau level.
Second, bureaus have not effectively tracked and managed their Class V wells. As
a result, bureaus are not complying with EPA’s regulations to self-report these
wells. Third, we found several instances where well types banned from operation
in 2005 were still operational on departmental lands.

We offer three recommendations to help the Department and its bureaus comply
with EPA’s regulations. In addition, we present four recommendations to
individual bureaus to begin identifying and managing Class V wells as well as
closing banned wells.




                                                                                    1
Introduction
Objective
Our objective was to evaluate the U.S. Department of the Interior’s (Department)
effectiveness in managing its underground injection control (UIC) wells. During
our fieldwork, we narrowed our scope to focus on UIC Class V wells (see “Scope
and Methodology” in Appendix 1).

Background
The Safe Drinking Water Act, passed in 1974, authorizes the U.S. Environmental
Protection Agency (EPA) to regulate injection wells to protect underground
sources of drinking water (42 U.S.C. §§ 300f – 300j-26). Under this authority,
EPA created the UIC Program and subsequent UIC regulations (40 C.F.R. pt.
144). The regulations identify six classes of injection wells based principally on
the type of planned or active injection and the depth of injections that could or do
pollute drinking water (see Figure 1 below).

                             Classes of Injection Wells
Classes                                         Use
 Class I     Inject hazardous wastes, industrial non-hazardous liquids, or
             municipal wastewater beneath the lowermost underground sources
             of drinking water.
 Class II    Inject brines and other fluids associated with oil and gas production,
             and hydrocarbons for storage.
 Class III   Inject fluids associated with solution mining of minerals beneath the
             lowermost underground sources of drinking water.
Class IV     Inject hazardous or radioactive wastes into or above underground
             sources of drinking water. These wells are banned unless authorized
             under a Federal or State ground-water remediation project.
 Class V     All injection wells not included in Classes I-IV [and Class VI]. In
             general, Class V wells inject non-hazardous fluids into or above
             underground sources of drinking water and are typically shallow, on-
             site disposal systems. However, there are some deep Class V wells
             that inject below underground sources of drinking water.
Class VI     Inject carbon dioxide for long-term storage, also known as Geologic
             Sequestration of carbon dioxide.

Figure 1. Source: http://water.epa.gov/type/groundwater/uic/wells.cfm.

We focused on Class V wells defined in EPA’s regulations as a broad
classification that includes all wells not in the other classes. Class V wells are
generally disposal systems that depend on gravity to drain the fluids into the
ground. They include such things as cesspools and drainage wells for storm water.
EPA calls these wells “among the greatest threats to groundwater quality” due to
their prevalence and lack of proper operation and maintenance. EPA estimates


                                                                                   2
that there are 650,000 of these wells operating throughout the country on both
public and private lands. Typically shallow, if not properly managed they could
contaminate underground sources of drinking water, a resource for 90 percent of
the public’s water systems.

EPA’s regulations require that all owners and operators of Class V injection
wells, including the Department’s bureaus, obtain authorization either by rule or
by permit from EPA or an EPA-delegated authority. Both methods of
authorization require the owner-operator to self-report and submit an inventory to
EPA or its delegated authority. The inventory must include such information as
facility name, location, and the nature of injected fluids. If the owner or operator
seeks authorization by rule and submits a complete inventory, the regulatory
authority may still require an application for a permit. In addition to the self-
reporting requirements, EPA has prohibited two types of Class V wells.
Beginning in 2005, these included motor vehicle maintenance drains (disposal of
vehicle waste fluids) and large-capacity cesspools (large, dry wells such as pit
toilets or outhouses that do not treat human sanitary waste).

The Department has thousands of these types of wells operating on departmental
lands thereby posing a threat to the Nation’s drinking water. The Department
must understand the nature of these wells and properly manage its Class V wells.




                                                                                   3
Findings
The Department and many of its bureaus were unaware of the broad nature of
EPA’s Class V well definition and, as such, had not properly identified and
tracked these wells. Without basic data on these wells, evaluation of the extent of
the wells and their management is impossible. We identify several areas where
the Department and individual bureaus can begin to actively manage their new
and existing wells, thereby complying with EPA regulations.

Improving Guidance
We found no specific departmental guidance related to underground injection
control. The Departmental Manual does not reference UIC activities or their
management. The closest related topics referred to the National Environmental
Policy Act passed in 1969. The Department agreed that it had no guidance and
proposed that the Departement’s Office of Environmental Policy and Compliance
would take the lead in developing policies and assisting individual bureaus to
come into compliance with EPA’s regulations.

While we found some UIC guidance at the bureau level, we found that the
bureaus differed in the amount and quality of guidance specific to UIC activities.
Differences among bureaus ranged from a promising environmental auditing
program in the Bureau of Indian Affairs (BIA) to no understanding of UIC
responsibilities at the U.S. Bureau of Reclamation (USBR). While many bureaus’
manuals and environmental audit programs generally refer to compliance with all
regulations and laws, no bureau produced specific guidance that fully addressed
Class V well management.

BIA has an environmental audit program that, while we were unable to fully
evaluate its effectiveness, stands out from other bureaus as most likely to identify
and address potential UIC issues. Its Division of Environmental and Cultural
Resources Management published two chapters (1 and 2) in The Indian Affairs
Manual that define policies, roles, and responsibilities to comply with EPA’s
regulations in program operations and activities. The “Indian Affairs Manual, Part
59, Chapter 2” establishes specific requirements and responsibilities of Indian
Affairs’ Headquarters’ and field office staff for compliance with environmental
statutes and regulations. In October 2011, EPA reviewed and approved BIA’s
multi-media environmental compliance audit program, which includes Federal
environmental requirements.

The U.S. Fish and Wildlife Service’s (FWS) Service Manual discusses pollution
at FWS’ facilities and refers to the Safe Drinking Water Act and the Clean Water
Act for surface discharges, but does not provide guidance for complying with
EPA’s UIC regulations. FWS stated that it also uses the Army Corps of
Engineers’ document, “The Environmental Assessment and Management
(TEAM) Guide,” which forms the basis of FWS’ environmental compliance


                                                                                   4
audits, but it could not provide any policy that would help it to comply with
EPA’s UIC regulations when constructing new wells.

Similarly, the National Park Service (NPS) has general policies that address
management of all wastewater treatment facilities, but these policies are not
specific to UIC requirements. NPS’ Director’s Order 83 titled “Public Health”
covers drinking water quality requirements of the Safe Drinking Water Act, but
does not address underground injection well requirements for protecting
underground sources of drinking water.

The Bureau of Land Management’s (BLM’s) regulations include “Onshore Order
No. 7, Disposal of Produced Water,” relating to oil and gas production by
operators on BLM managed lands, which supplements 43 C.F.R. pt. 3160. Neither
addresses Class V wells’ requirements. The BLM Manual’s section 9100–
“Engineering;” and the Compliance Assessment—Safety, Health and the
Environment (CASHE) Program discuss general environmental regulations, but
are not specific to UIC or Class V wells. We note that while the CASHE protocols
do not cover UIC concerns, the program itself has had some success in identifying
concerns with UIC activities, including 46 audit findings related to Class V wells
since 1998. In response to our Notice of Potential Findings and Recommendations
(NPFR), BLM agreed to consult with the Department’s Office of Environmental
Policy and Compliance and use its environmental management system for
assistance and guidance in developing updated UIC policies and procedures.

USBR’s Directives and Standards does mention the Safe Drinking Water Act, but
has no guidance specific to UIC activities. The Reclamation Manual: ENV 07,
“Environmental Mitigation,” refers to the Clean Water Act, which concerns
surface discharge. Again, UIC policies and requirements are absent.

Where guidance does exist at the bureau level, it is general and does not fully
address UIC issues. In addition, nearly all documented UIC guidance concerns
identifying existing wells through environmental compliance audits. We found no
evidence of specific policies pertaining to compliance with EPA’s UIC
regulations when constructing new wells.

 Recommendation

     We recommend that the Assistant Secretary for Policy, Management and
     Budget:

        •   Develop and implement policies, procedures, and plans to ensure
            compliance with EPA’s UIC regulations and help bureaus
            consistently identify, inspect, and manage UIC Class V wells.




                                                                                 5
 Recommendation

     We recommend that BIA, BLM, USBR, FWS, and NPS:

        •   Develop and implement policies, procedures, and plans to include
            consistently identifying, authorizing, inspecting, and managing UIC
            Class V wells to ensure compliance with EPA’s UIC regulations.


Tracking Class V Wells
No bureau provided a complete listing of UIC Class V wells. Bureaus were not
aware of the scope of EPA’s definition of Class V wells, making it difficult to
provide a comprehensive listing. Four of the five bureaus we evaluated submitted
only partial listings of their Class V wells. These listings were limited to specific
types of Class V wells, not all types. For example, BLM was unable to provide a
comprehensive listing of Class V wells, but did provide a list of pit toilets when
asked for them specifically (71), NPS listed wastewater systems with groundwater
discharge or septic tanks (1,244), FWS listed floor drains (54), and USBR listed
sewage septic systems (82), floor drains (16), and agricultural runoff (1). BIA did
not provide any listing. BIA, BLM, and NPS do not collect or retain this
information at a centralized location; instead, we were told that specific
information on Class V wells might be retained at field offices, individual
facilities, or park-level facilities.

As noted, FWS listed floor drains, but did not know if these were Class V wells.
In addition, FWS does not maintain a national database on sanitary leach fields or
on fish hatcheries that could have aquaculture wells, another type of Class V well.

USBR did not submit a list in response to our initial data request, but in response
to our NPFR subsequently submitted a list of 99 Class V wells. USBR did not
know 75 percent of these wells’ operational status.

EPA’s Region 8, through its inspection and outreach programs, produced a listing
of Class V wells at several Federal locations within the Region that the bureaus
did not identify. This included 14 wells at FWS’ facilities, 35 at NPS’ sites, and 2
at BLM. Given that many of these bureaus have facilities at remote locations and
have developed campgrounds and recreation areas, they are probably not aware of
many Class V wells.

The concerns about Class V wells are particularly critical for the Insular Areas as
these areas rely heavily on cesspools and are more likely to rely on ground water
for their drinking water. For example, American Samoa has been on a “Boil
Water Notice” status since 2010. According to the October 2006 “Water
Resources Master Plan” by the Guam Waterworks Authority, 41 percent of island
residents use cesspools for waste disposal. Given that the northern aquifer in
Guam supplies about 75 percent of Guam’s potable water, cesspools pose a high


                                                                                      6
risk to this primary source of drinking water. In 2000, fewer than 45 percent of
housing units in the Virgin Islands had public sewer connections.

The Office of Insular Affairs (OIA) is responsible for coordinating Federal policy
in the territories of American Samoa, Guam, the U.S. Virgin Islands, and the
Commonwealth of the Northern Mariana Islands. OIA is unique in that it does not
oversee or participate in injection well activities in the territories unless asked to
do so. As such, OIA did not respond to our request for a complete listing of UIC
wells.

 Recommendations

    We recommend that BIA, BLM, USBR, FWS, and NPS:

        •   Identify Class V underground injection wells and develop
            centralized systems for tracking existing and new wells.

    We recommend the Acting Assistant Secretary for Insular Areas:

        •   Work with EPA to develop an outreach program to include
            identifying, inspecting, and managing UIC Class V wells to ensure
            compliance with EPA’s UIC regulations.



Compliance with EPA’s Reporting Requirements
EPA’s UIC regulations require owners and operators of Class V wells to submit
inventory information to their State or Federal UIC program director. Facility
managers are responsible for knowing that items such as floor drains, sinks,
toilets, and showers that do not flow into a sewer treatment system are subject to
EPA’s UIC regulations. Furthermore, 40 C.F.R. § 144.26 requires each owner or
operator of a Class V injection well to provide an inventory report containing at
least the following information: (1) facility name and location, (2) name and
address of legal contact, (3) ownership of facility, (4) nature and type of injection
wells, and (5) operating status of injection wells. Unless prompted by EPA or an
environmental compliance audit, the bureaus are not self-reporting inventory
information as required.

Bureau headquarters officials across the Department were uncertain if field
offices were self-reporting their Class V wells to EPA as required. One NPS staff
member stated that reporting is “sporadic.” FWS listed 54 unreported floor drains.
BLM identified 71 unreported pit toilets. We discovered several EPA
enforcement actions citing NPS for unreported, large-capacity cesspools. NPS
subsequently closed these cesspools. In response to our NPFR, USBR stated
incorrectly that it is the States’ or EPA’s responsibility to inform well owners or
operators of the inventory requirement for each well. An official for EPA’s


                                                                                     7
Region 8 stated that he could not say whether any bureau self-reports well data in
his region as required by the regulations. In contrast, BIA has been submitting
semi-annual compliance audit reports to EPA since 2011, and may have
procedures that the other bureaus can emulate.

Failure to adhere to EPA’s reporting requirements stems from several contributing
factors including the absence of departmental guidance, uncertainty over the
definition of Class V wells, and a lack of bureau procedures on what is required if
a bureau has a Class V well. As a result, the Department and its bureaus are not
compliant with EPA’s UIC regulations. Given that many of these bureaus have
facilities at remote locations, significant numbers of Class V wells may exist,
exposing the Department to potential EPA enforcement and related fines,
including a maximum of $10,000 per day, per violation, up to a total of $125,000.

Facility managers are not required to be technical experts on Class V wells or to
determine the risk exposure of a particular well. Their responsibility is to provide
an inventory of wells to EPA. EPA will then determine the possible impact to the
underground water supply, and what subsequent actions may be necessary.

 Recommendation

    We recommend that BIA, BLM, USBR, FWS, and NPS:

        •   Develop and implement policies and procedures that will educate
            facility managers on EPA’s rules concerning Class V wells, ensure
            consistent reporting of new and existing UIC Class V wells in
            accordance with EPA’s regulations, and ensure compliance with
            EPA’s regulations by conducting reviews to verify reporting
            requirements are being met.


Closing Banned Wells
Because of their potential to pollute underground sources of drinking water, EPA
banned motor vehicle waste disposal drains and large-capacity cesspools effective
in 2000. Owners and operators were given until 2005 to permanently close large-
capacity cesspools and until 2008 to close or obtain a permit for motor vehicle
waste disposal wells. These shallow wells allow motor fuel, solvents, oil, and
untreated sanitary waste to percolate into the soil and groundwater. Contaminants
such as benzene and toluene from motor vehicle drains cause cancer, and
pathogens from untreated sanitary waste can pose a serious health risk from a
single exposure. As previously described, the bureaus were unable to provide a
comprehensive list of Class V wells, but banned wells still exist throughout the
Department. We found:

   •   71 pit toilets located throughout the United States—BLM;



                                                                                   8
   •   54 floor drains located in 29 different States—FWS;
   •   9 temporarily abandoned, but not approved, waste discharge wells in
       Alaska—BLM;
   •   6 floor drains—4 in Wyoming and 2 in Oklahoma. Status was unknown—
       USBR;
   •   4 active large-capacity cesspools (pit toilets) located in Montana—USBR;
   •   3 large-capacity cesspools (pit toilets) identified in a 2010 EPA inspection
       report remain open in Colorado—BLM;
   •   2 permanently abandoned but not approved motor vehicle waste disposal
       wells in Idaho—BIA;
   •   1 active motor vehicle waste disposal well located in Alaska—NPS; and
   •   1 active motor vehicle waste disposal well located in Oregon—BIA.

Given the vast number of remote recreation areas managed by the Department’s
bureaus, other banned wells may exist. With over 600 USBR campgrounds, one
would likely find pit toilets unconnected to a septic or sewer system. BLM
attracted over 72 million visitors to its lands in 2012, many of which may contain
pit toilets. EPA’s Region 9 Web site noted that cesspools are more widely used in
Hawaii than in any other State, and that 40 percent of households in the U.S.
Virgin Islands and on Guam still use cesspools rather than municipal sewer
systems.

An added hindrance to getting banned wells closed is the ambiguous nature of
EPA’s definition of large-capacity cesspools. This has led BLM to disagree with
defining pit toilets as large-capacity cesspools, and therefore maintains it does not
have to close its pit toilets. EPA’s definition states that non-residential, large-
capacity cesspools are those that have the capacity to serve 20 or more people per
day. EPA’s Region 8 clarified that they have not defined this as 20 people per
day, every day as BLM contends. An EPA pamphlet on banned wells provides
examples such as churches or restaurants and states that these may be closed or
not open to the public on certain days, but they still meet the definition of a large
capacity cesspool. EPA has issued notices of inspection to BLM for three pit
toilets located in Kremmling, CO.

Some bureaus have made strides in locating, reporting, and closing banned Class
V wells. As part of its Environmental Management System and multi-media audit
program, BIA has identified and closed a number of Class V wells including
motor vehicle waste disposal drains in Yakama, WA, and Owyhee, NV. EPA’s
Regions 9 and 10 reported that NPS has closed 23 large-capacity cesspools and 2
motor vehicle drains. EPA reported that after we issued our NPFRs to the
bureaus, it received inquiries from NPS about its Class V wells and what steps it
needs to take for compliance.




                                                                                    9
Recommendations

  We recommend that the Assistant Secretary for Policy Management and
  Budget:

     •   Work with EPA to clarify the definition of large-capacity cesspools
         to ensure consistency in application throughout the Department.

  We recommend that BIA, BLM, USBR, FWS, and NPS:

     •   Immediately close any banned Class V injection wells.




                                                                               10
Conclusion and Recommendations
Conclusion
There appears to be a risk of undocumented and banned wells to the Nation’s and
Insular Areas’ sources of drinking water. It is, therefore, imperative that the
Department takes the initiative to comply with EPA’s regulations and protect this
precious resource.

Recommendations
We recommend that the Assistant Secretary for Policy, Management and Budget:

   1. Develop and implement policies, procedures, and plans to ensure
      compliance with EPA’s UIC regulations and help bureaus consistently
      identify, inspect, and manage UIC Class V wells.

       Office of Policy, Management and Budget (PMB) Response: PMB
       concurred with the recommendation and “will issue guidance for
       compliance with U.S. EPA’s UIC regulations for the identification,
       inspection, and management of UIC Class V wells.”

       Office of Inspector General (OIG) Reply: We consider this
       recommendation resolved, but not implemented. The recommendation will
       be referred to the Assistant Secretary for Policy, Management and Budget
       for tracking of implementation.

   2. Work with EPA to clarify the definition of large capacity cesspools to
      ensure consistency in application throughout the Department.

       PMB Response: PMB concurred with this recommendation and agreed to
       work with EPA “personnel to clarify the definition of large capacity
       cesspools in order to ensure a consistent understanding of that definition is
       applied Department-wide.”

       OIG Reply: We consider this recommendation resolved, but not
       implemented. The recommendation will be referred to the Assistant
       Secretary for Policy, Management and Budget for tracking of
       implementation.

We further recommend that BIA, BLM, USBR, FWS, and NPS:

   3. Develop and implement policies, procedures, and plans to include
      consistently identifying, authorizing, inspecting, and managing UIC Class
      V wells to ensure compliance with EPA’s UIC regulations.




                                                                                 11
BIA Response: BIA concurred with the recommendation and stated that it
has already developed manual chapters as well as procedures that identify
responsible parties for environmental regulations. In addition, as stated in
the report, BIA conducts EPA approved environmental audits of all BIA
facilities on a 3-year cycle. BIA committed to continual improvement of
procedures and plans to “provide consistent conformance to environmental
regulations and audit assessments in identifying and closing banned UIC
Class V wells.”

OIG Reply: We consider this recommendation resolved and
implemented. No further action is required.

BLM Response: BLM concurred with this recommendation and in
August of 2013 issued an instruction memorandum (IM 2013-178) that
initiated a bureauwide inventory of potential Class V wells and also
prompted field offices to update the Facility Asset Management System
to identify Class V wells. Based on the results of this inventory, BLM will
issue an additional instruction memorandum that provides direction for
managing new and existing Class V wells. In addition, BLM is “drafting
an Environmental Compliance Handbook to include the Class V
requirements and will continue to consult with the Department of the
Interior’s Office of Environmental Policy and Compliance and the
Department’s Environmental Management System and the Compliance
Technical Working Group to develop a comprehensive policy and
procedures for managing UIC wells.”

OIG Reply: We consider this recommendation resolved, but not
implemented. The recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of
implementation.

USBR Response: USBR concurred with this recommendation and plans
to update its “Directives and Standards” to include policies to conform
with EPA’s Class V well regulations.

OIG Reply: We consider this recommendation resolved, but not
implemented. The recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of
implementation.

FWS Response: FWS partially concurred with the recommendation
noting that policy and an environmental compliance program currently
exist. FWS did aknowledge that improvements can be made to these and
agreed “to expand existing policy by adding specific UIC program
requirements and their applicability, and definitions that clarify the
identification of UIC Class V wells.”



                                                                         12
   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

   NPS Response: NPS concurred with the recommendation and stated that
   it is prepared to comply with policy direction developed by the
   Department. In addition NPS is currently updating the guide it uses for
   conducting environmental audits and plans to include in it items that will
   “more fully address and emphasize the UIC requirements and to identify
   both compliance requirements and best management practices (BMPs) to
   fulfill and exceed the goals of the UIC program.” NPS also plans to
   include training on UIC requirements for environmental auditors and
   develop a Class V well checklist that will allow park staff to identify Class
   V wells and ensure compliance with EPA’s regulations.

   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

4. Identify Class V underground injection wells and develop centralized
   systems for tracking existing and new wells.

   BIA Response: BIA concurred with the recommendation and has
   established a database on its SharePoint site to track UIC Class V wells. It
   plans on verifying the accuracy of this information through its ongoing
   environmental audit program.

   OIG Reply: We consider this recommendation resolved and
   implemented. No further action is required.

   BLM Response: BLM concurred with the recommendation and agreed to
   develop a “centralized business process to track existing and new wells.”

   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

   USBR Response: USBR concurred with this recommendation and agreed
   to “validate, update, and manage Reclamation’s [USBR’s] centralized
   listing of UIC Class V wells.”




                                                                             13
   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

   FWS Response: FWS partially concurred with this recommendation and
   cited its transition to an “electronic environmental compliance information
   repository for field station-specific environmental information” as a
   potential means of addressing it.

   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

   NPS Response: NPS concurred with the recommendation and has
   upgraded its current facility tracking system to include identifying Class V
   wells. Through this process, NPS has been able to identify 1,273 potential
   Class V wells and is working with regional and field units to verify this
   information and to ensure an accurate inventory. This inventory will also
   be provided to environmental auditors prior to site visits to assist them in
   compliance verification. NPS is also drafting compliance assistance for
   park staff concerning Class V wells.

   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

5. Develop and implement policies and procedures that will educate facility
   managers on EPA’s rules concerning Class V wells, ensure consistent
   reporting of new and existing UIC Class V wells in accordance with
   EPA’s regulations, and ensure compliance with EPA’s regulations by
   conducting reviews to verify reporting requirements are being met.

   BIA Response: BIA concurred with this recommendation and has given
   facility managers the ability to access Class V well information and
   requirements on its internal, SharePoint site. Third-party auditors are also
   providing 90 days of technical support on this site as well as a 1-day, on-
   site training to ensure facility managers are reporting Class V wells
   consistently and uniformly.

   OIG Reply: We consider this recommendation resolved and
   implemented. No further action is required.




                                                                             14
BLM Response: BLM concurred with this finding and plans to issue
additional guidance to supplement the previously issued instruction
manual, and “will incorporate the policies in the Environmental
Compliance Handbook.”

OIG Reply: We consider this recommendation resolved, but not
implemented. The recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of
implementation.

USBR Response: USBR concurred with this recommendation and will
develop a training program for facility managers concerning Class V wells
that will incorporate implementing EPA’s regulations and ensure the
consistent reporting of new and existing wells.

OIG Reply: We consider this recommendation resolved, but not
implemented. The recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of
implementation.

FWS Response: FWS partially concurred with this recommendation.
FWS will include UIC Class V well requirements in their existing on-site
and distance learning methods for training facility managers and will also
create a UIC fact sheet for facility manager outlining requirements. FWS
also will include UIC regulations in their 2014 training to regional
environmental compliance coordinators.

OIG Reply: We consider this recommendation resolved, but not
implemented. The recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of
implementation.

NPS Response: NPS concurred with this recommendation and will make
compliance with UIC regulations an “NPS Environmental Management
Program emphasis” through 2019. This will include creating support
materials and services for staff managing Class V wells through their
regional environmental coordinators. NPS will also task its Facilities
Management Division and Denver Service Center to ensure new wells are
in compliance with EPA’s and the Department’s policies. In addition, NPS
will continue to coordinate with NPS’s Office of Public Health to ensure
that its officers and park water operators are aware of UIC requirements.

OIG Reply: We consider this recommendation resolved, but not
implemented. The recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of
implementation.



                                                                        15
6. Immediately close any banned Class V injection wells.

   BIA Response: BIA concurred with this recommendation and will
   continue to identify and close banned Class V wells through multi-media
   environmental audits. Closed wells will be verified by an EPA-approved
   third-party operator within 80 days after their identification. BIA will use
   the newly created SharePoint database of Class V wells to further these
   practices.

   OIG Reply: We consider this recommendation resolved and
   implemented. No further action is required.

   BLM Response: BLM concurred with this recommendation. While
   currently “BLM is unaware of any banned Class V wells operations at its
   field office and facilities” it plans on working with the Department to
   determine “if any of its pit toilets meet the definition of a large-capacity
   cesspool” and will close them if necessary. The three pit toilets in
   Kremmling, CO, identified in this report are to be replaced in 2014.

   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

   USBR Response: USBR concurred with this recommendation and will
   work to identify and close all existing banned Class V wells based on
   EPA’s and departmental policies.

   OIG Reply: We consider this recommendation resolved, but not
   implemented. The recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking of
   implementation.

   FWS Response: FWS did not concur with the recommendation stating it
   has already closed all banned Class V wells and is in compliance with UIC
   requirments. It noted that the 54 unreported floor drains in the report were
   not reported because they have been closed. It stated that it does not have
   pit toilets sites.

   OIG Reply: We consider this recommendation unresolved. While
   understanding that the 54 floor drains identified have now been closed,
   FWS has not demonstrated that it is fully aware of all the Class V well
   types, beyond floor drains and pit toilets, that may exist on FWS-managed
   lands, and has yet to be able to identify them. As such it is impossible to
   state with any certainty that it “is in compliance with these Class V well
   requirements.” We encourage FWS to continue to identify its Class V



                                                                              16
       wells and close those that are identified as banned. We request that FWS
       reconsider its response to this recommendation.

       NPS Response: NPS concurred with the recommendation and has already,
       based on OIG communication, completed a review of possible Class V
       wells in 2013 and identified no banned wells. “However, NPS will
       maintain vigilance through its Environmental Audit Program,
       Environmental Disposal Liability (EDL) Program, and other review
       opportunities to ensure that no existing banned Class V wells remain
       operational on NPS lands.”

       OIG Reply: We consider this recommendation resolved and
       implemented. No further action is required.

We further recommend that the Acting Assistant Secretary for Insular Areas:

   7. Work with EPA to develop an outreach program to include identifying,
      inspecting, and managing UIC Class V wells to ensure compliance with
      EPA’s UIC regulations.

       OIA Response: OIA concurred with the recommendation but added that
       EPA retains primacy for UIC acitivities and has a program in effect. OIA
       has initiated contact with the EPA regarding possible outreach activities
       but did not provide details of this contact.

       OIG Reply: We consider this recommendation resolved, but not
       implemented. We request that OIA provide us with the details of the
       contact thay have initiated with EPA and encourage OIA to continue to
       make overtures to EPA that would form partnerships and result in
       benefitting all stakeholders through better management of UIC wells.




                                                                               17
Appendix 1: Scope and Methodology
Scope
We focused on the U.S. Department of the Interior’s oversight of policies and
procedures for Class V underground injection control.

Methodology
We conducted this evaluation in accordance with the Quality Standards for
Inspection and Evaluation issued by the Council of the Inspectors General on
Integrity and Efficiency in January 2012. We conducted the evaluation from
November 2012 through June 2013. We believe the work performed provides a
reasonable basis for our conclusions and recommendations.

We reviewed laws, regulations, policies, and procedures related to underground
injection control, examined Class V well listings, and interviewed knowledgeable
personnel in the Department of the Interior and the Environmental Protection
Agency (EPA).

We visited or contacted the following organizations:

   •   EPA, Region 8, Denver, CO;
   •   EPA, Region 9, San Francisco, CA;
   •   EPA, Region 10, Seattle, WA;
   •   Bureau of Land Management (BLM), Colorado State Office, Lakewood,
       CO;
   •   BLM, Evaluations and Management Services;
   •   BLM, Division of Solid Minerals;
   •   BLM, Fluid Minerals Division;
   •   BLM, Renewable Energy Program;
   •   BLM, Branch of Lands & Realty;
   •   BLM, Branch of Social and Cultural Resources;
   •   U.S. Bureau of Reclamation (USBR), Operations , Washington DC;
   •   USBR, Maintenance Services Division, Lakewood, CO;
   •   Department of the Interior, Office of Environmental Policy and
       Compliance;
   •   U.S. Fish and Wildlife Service (FWS), Environmental Compliance
       Branch, Division of Engineering, Arlington, VA;
   •   FWS, Office of Resource Conservation;
   •   National Park Service, Inter-mountain Region;
   •   Bureau of Indian Affairs (BIA); Environmental and Cultural Resources;
   •   BIA, Office of Indian Energy and Economic Development;
   •   BIA, Branch of Engineering;
   •   Office of Insular Affairs, Office of Policy Development; and the
   •   Office of Surface Mining, Division of Regulatory Support.


                                                                                18
Appendix 2: Bureaus’ Responses to
Draft Report
The Bureaus’ responses to our draft report follows on page 20.




                                                                 19
                   United States Department of the Interior
                                 OFFICE OF THE SECRETARY
                                    Washington, DC 20240

                                            JAN 1 5 2014

Memorandum

To:            Kimberly Elmore
               Assistant Inspector General for   udits, Inspections, and Evaluati

From:          Willie R. Taylor, Director        _d~?.
               Office of Environmental licy and Compliance
                                                                     M
Subject:       Draft Evaluation Report- U.S. Department of the Interior' s Underground
               Injection Control Activities, OIG Report No. CR-EV -MOA-0006-2012

Thank you for the opportunity to review the "Draft Evaluation Report- U.S. Department of the
Interior' s Underground Injection Control Activities," Report No. CR-EV-MOA-0006-2012. The
Office of Environmental Policy and Compliance (OEPC) has been designated as providing the
response on behalf of the Assistant Secretary - Policy, Management and Budget (AS-PMB).

We appreciate the efforts of the Office of Inspector General to identify the potential for
noncompliance with underground injection control (UIC) regulations at the Department. In
general, OEPC concurs with the recommendations for the AS-PMB, however, we are concerned
about the language used in the report when describing the threat to the Nation' s drinking water.
On page 3, the report states the Department has "thousands of these types of wells operating on
departmental lands thereby posing a significant threat to the Nation's drinking water." The
findings of the report do not seem to support this assessment of the number and the threat. The
OEPC will however work with the bureaus to address the recommendations included within the
report with the understanding that this work will be placed alongside other current priorities
within a severely constrained and limited resources environment.

Recommendation 1: Develop and implement policies, procedures, and plans to ensure
compliance with the U.S. Environmental Protection Agency' s (EPA' s) UIC regulations and help
bureaus consistently identify, inspect, and manage UIC Class V wells.

Response: Concur. The OEPC will issue guidance for compliance with U.S. EPA' s UIC
regulations for the identification, inspection, and management ofUIC Class V wells.

Target Date: Q4, FY 2014

Recommendation 2: Work with EPA to clarify the definition of large capacity cesspools to
ensure consistency in application throughout the Department.




                                                                                               20
                                                                                                  2

Response: Concur. The OEPC will work with the U.S. EPA's Office of Ground Water and
Drinking Water personnel to clarify the definition of large capacity cesspools in order to ensure a
consistent understanding of that definition is applied Department-wide.

Target Date: Q4, FY 2014

If you have any questions about this response or need additional information, please contact a
member of my staff, Lisa Treichel, at Lisa Treichel@ios.doi.gov or 202-208-7116.



cc:    Environmental Management Systems Technical Workgroup members
       Ed Awni, Office of Acquisition and Property Management
       Director, Office of Financial Management
       Deputy Assistant Secretary - Policy and International Affairs




                                                                                                 21
                            United States Department of the Interior
                                         B REAU OF INDl N AFF IR
                                            Washington. DC 20240

IN RI:.PU REfi: R TO.
                                                 FEB 1 1 2014


   Memorandum

   To :                 Kimberly Elmore
                        Assistant Inspector General for Audits. ln pections, and Evaluations

   From:         ~6t    Michael . Black                     ~         C.. ~
                        Director, Bureau of Indian Affair   JJ~

     ubject:            Respon e to Draft Evaluation Report - U.S. Department ofthe Interior's
                        Underground Injection Control Activitie
                        Report No. CR- V-MOA-0006-2012

   Thank you for the opportunity to pro ide comments on the four recommendations identified in
   the Draft Evaluation Report-U.S. Department of the Interior's (D I) Underground Injection
   Control (UIC) Activitie : Report No. CR-EV -MOA-0006-20 12, dated December 2013 .

   The Division of Environmental and Cultural Res urce Management (DECRM) overs es and
   as esses environmental compliance throughout Indian Affairs (IA) and manage the conduct of
   multi-media environmental compliance audit . The official re ponsible for assessing lA
   environmental compliance is Pamela nyder-Osmun, Environmental Compliance and Audit
   Program Manager. DECRM.

   The IA Memorandum, dated April 12.2013, to Mr. Chari sHaman, Regional Manager for
   Audits, rnspection and E aJuation, Office ofthe Inspector General-U.S. DOl, identified lA
   environmental policies, procedures standard operating procedure ( OPs), including those for
   Class V well management. a de cription of the multi-media environmental audit probram and the
   Envirorunental Managem nt Systems (EMS) which is compliance-bas d and implemented
   throughout alJ organizational levels of lA. tn addition to the infom1ation IA provided in the
   April 12, 013 , Memorandum. lA provid sits responses in th.i Memorandum to the
   recommendations outlined in th Draft Evaluation Report-DO I UIC Activities; Report No. CR-
   EV-MOA-0006-2012, dated December 2013 .

   Recommendation 1. Develop and implement policies, procedure and plans to include
   consi tentl identifying. authorizing, inspecting, and managing UlC Class V w Us to ensure
   compliance with EPA UlC regulations.

  lA Response. Indian Affairs developed two manual chapters that identify rnanag m nt roles
  and re ponsibilities to comply with all environmental regulations. lndian Affairs has also
  developed procedures for fA operations and activiti s that are posted on the EMS SharePoint site
  for use by lA staff and managers. To en ure lA facilities are in compliance, lA conducts multi-


                                                                                                 22
media environmental audit at all lA facilities on a continuous three-year cycle. Third-party
auditors approved by the U.S . EPA, conduct the audit . The IA multi-media audit program is
EPA approved and allows for consistent reporting in all environmental laws in accordance with
EPA r gulations. After the audit. the facility prepares action plans and compl iance plans with
specific taff assignments to correct audit finding . Indian Aiiair will continue to update,
devel p and implement policies, standard operating procedures, a tion plans and compliance
plans, including auditing procedures that provide consi tent conformance to environmental
regulations and audit as es ment in identifying and clo ing banned UTC Class V well at IA
facilities.

Recommendation 2. Identify Class V UlC wells and develop centralized sy terns for tracking
exi ting and new wells.

lA Response. In addition to the asset managem nt information system managed by the Office of
Facilitie Management and Construction-Indian Affairs, IA established a UIC Class V Well
centralized database on its EM harePoint ite to track e. i ting and new Cla s V wells. The
centralized database allows each facility to report and track their Class V well and provide
information on the type of Class V well. dat of installation, and date they submitted the
Inv ntory Report Form and/or permit application to EPA. The lA EM SharePoint site is
maintained on the DOl SharePoint website and is accessible to all lA employees with DOI
security clearance. Indian Affairs will c ntinue to maintain the UIC Class V Well centralized
database on its EM SharePoint site and verify Class V well information at each facility through
its EPA-approved muJti-media en ironmental audit program.

Recommendation 3. De elop and implement policie and procedure that will educate Facility
Managers on EPA's mles concerning Class V wells, ensure consistent reporting of new and
existing UlC Class V wells in accordance with EPA' regulations, and ensure compliance with
EPA's regulations by conducting reviews to verify reporting requirements are being met.

lA's Response. In addition to the policie and procedures described in Recommendation 1, lA
continues to implement its compliance-focu ed ~ MS to mana0 e continual environmental
performance improvement. Facility manager that require information on Class V wells may
access the EM harePoint ite and view the regulations and guidance on managing Class V
wells. The centralized Cia s V well database on the EM SharePoint site provide consistent and
uniform reportin of new and exi ting Class V wells. The IA third-party auditors provide 90 days
of technical assi tance and one day of n- ite training/a sistance to each audited facility. The
subject of on-site training and technical as i tance i determined in coUaboration with the facility
staff and the third-party auditor, and eight d by the findings identified during the audit. Indian
Affairs will continue the multi-media environm ntal audit program and training of facility staff
on managing Class V well to en ur UI compliance.

Recommendation 4. Immediately close any banned Class V injection wells.

lA Re pon e. Indian Affair identifies banned Class V \: ells in its multi-media environmental
audits and brumed Class V w lis are closed within 90-days after the audit. Progress and/or
 erification of closure are provided by a third-party auditor, approved by EPA, within 60 to 80



                                                                                                  23
days after the audit. The Regional Environmental Scienti ts Facility Managers and DECRM-IA
will continue to review the Class V well infom1ation in the centralized database on the EMS
SharePoint site and close banned Class V wells as identified.

Indian Affair will continue implementation of its compliance-focused EMS and incorporate the
four recommendations as dcscrib din Report No.: CR-EV-MOA-0006-2012, into its action
plans, procedures, and audit assessment to maintain continual environmental compliance with
UIC regulatory requirements. lf any additional information is needed, please contact Marvin
Keller, Acting Division Chief, D CRM, at (703) 390-6470.




                                                                                           24
                  United States Department of the Interior
                                  BUREAU OF LAND MANAGEMENT
                                        Washington, D.C. 20240
                                          http://www.blm.gov



                                           JAN 3 1 20t4
In Reply Refer To:
1245/9100/1703 (830/854/280)


Memorandum

To:            Kim Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations

From:      t-Neil Kornze                  r1::1J
                                            lr/J/'J r
              Principal Deputy Director   ~ ~
Subject:       Office oflnspector General Evaluation Draft Report- U.S. Department of the
               Interior's Underground Injection Control Activities (CR-EV-MOA-0006-2012)

Thank you for the opportunity to review and comment on the Office of Inspector General (OIG)
evaluation draft report titled, US. Department ofthe Interior's Underground Injection Control
Activities (CR-EV-MOA-0006-2012). The Bureau of Land Management (BLM) concurs with
the four recommendations and has requested updates to the findings to better reflect the situation
on-the-ground.

Attachment 1 provides specific responses to each recommendation including a summary of the
actions taken or planned by the BLM as well as the contact information for the responsible
officials and the target dates of implementation.

If you should have any questions about this response, please contact Nancy Dean, Chief,
Division ofEnvironmental Quality and Protection, at 202-912-7136; Corey Grant, Chief,
Division of Business Services, at 202-912-7040; or LaVanna Stevenson, BLM Audit Liaison
Officer, at 202-912-7077.


Attachment




                                                                                                 25
                                                                                      Attachment 1


Response to the Recommendations included in the Office of Inspector Evaluation Draft
Report of U.S. Department of Interior's Underground Injection Control Activities
                               (CR-EV -MOA-0006-2012)


Recommendation 1: Develop and implement policies, procedures, and plans to include
consistently identifying, authorizing, inspecting, and managing UIC Class wells to ensure
compliance with EPA's UIC regulations.

Response: In August 2013, the BLM issued an Instruction Memorandum (IM) 2013-178,
Inventory ofClass V Underground Injection Control Wells, Septic Systems and Pit Toilets, which
required field offices to conduct an inventory of the waste disposal and storm water drainage
systems that are considered underground injection control (UIC) Class V wells, septic systems,
and/or pit toilets. The 1M further requires an update to the Facility Asset Management System
(FAMS) by documenting any waste disposal or storm water drainage systems not already
included and to flag such systems that are regulated as a UIC well.

The results of the inventory are currently under review to identify all BLM Class V Wells and
the status of their compliance with the U.S. Environmental Protection Agency (EPA) regulations.
A follow-up IM will be issued that provides a comprehensive listing of ELM-managed Class V
Wells per State and provides direction on managing the existing wells and potential new wells to
ensure compliance with EPA' s regulations.

In addition, the BLM is drafting an Environmental Compliance Handbook to include the Class V
requirements and will continue to consult with the Department of the Interior's Office of
Environmental Policy and Compliance and the Department' s Environmental Management
System and the Compliance Technical Working Group to develop a comprehensive policy and
procedures for managing UIC wells.

Target Date: March 1, 2015

Responsible Official: Edwin Roberson, Assistant Director, Renewable Resources and Planning
and Janine Velasco, Assistant Director, Business, Fiscal and Information Resources Management

Recommendation 2: Identify Class V underground injection wells and develop centralized
systems for tracking existing and new wells.

Response: As a follow-up to the issuance of IM 2013-178, the BLM Washington Office is
reviewing the field office responses to the inventory of the existing septic systems and pit toilets
to assess whether they meet the definition of a Class V well. As noted in Recommendation 1, we
will continue to consult with the Department and will develop a centralized business process to
track existing and new wells.

Target Date: July 31 , 2014

                                                                                                   26
Responsible Official: Edwin Roberson, Assistant Director, Renewable Resources and Planning

Recommendation 3: Develop and implement policies and procedures that will educate facility
managers on EPA ' s rules concerning Class V wells, ensure consistent reporting of new and
existing UIC Class V wells in accordance with EPA's regulations, and ensure compliance with
EPA's regulations by conducting reviews to verify reporting requirements are being met.

Response: Once the Class V Well inventory is finalized, the BLM will issue additional guidance
to supplement 1M 2013-178 and will incorporate the policies in the Environmental Compliance
Handbook.

Target Date: March 1, 2015

Responsible Official: Edwin Roberson, Assistant Director, Renewable Resources and Planning

Recommendation 4: Immediately close any banned Class V injection wells.

The BLM is unaware of any banned Class V wells operations at its field office and facilities.
The BLM will work in conjunction with the Department and the applicable regulatory agencies
to identify if any of its pit toilets meet the definition of a large-capacity cesspool. Any toilets
that meet the criteria will be immediately closed.

The three pit toilets in Kremmling, CO that EPA Region 8 had idenlifit!d are scheduled to be
replaced with vault toilets in the summer 2014.

Target Date: July 31, 2014

Responsible Official: Edwin Roberson, Assistant Director, Renewable Resources and Planning
and John Mehlhoff, Acting Colorado State Director




                                                                                                      27
                       United States Department of the Interior
                                      BUREAU OF RECLAMATION
                                            Washington. DC 20240

INREPLYREFER TO:


   84-27400
   ADM-8.00



                                           MEMORANDUM

   To:         Office oflnspector General
                Attn: Assistant Inspector General for Audits, Inspections, and Evaluations

                                 j~                      J~ EB
       r-1
   Through: AnneJ.Castle                      )'\!\
            Assistant Secretary - Water and Science
                                                                         18 2014

   From:       Michael L Connor      ~
Ac:liaa!CI'    Commissioner   ~~                                   FEB 1~ 2014
   Subject: The Bureau of Reclamation's Response to the Office oflnspector General (OIG) Draft
            Report, US. Department of the Interior's Underground Injection Control Activities,
            Report No. CR-EV-MOA-0006-2012

   The OIG in its December 19, 2013, draft report, U S. Department of the Interior's Underground
   Injection Control Activities, requested that Reclamation inform the OIG of the planned course of
   action to address and implement the recommendations in the subject report. The requested
   information is attached.

   If you have any questions or require additional information, please contact Elizabeth
   Cordova-Harrison, Director, Management Services Office, at 303-445-2783.

   Attachment




                                                                                                 28
                                                                                     Attachment

                         The Bureau of Reclamation's Response to the
                   Office oflnspector General (OIG) Draft Evaluation Report
                         U.S. Department of the Interior's Underground
                                  Injection Control Activities
                              Report No. CR-EV-MOA-0006-2012

                                         January 2014


Reclamation appreciates the opportunity to provide comments on the four recommendations
identified in the Draft Evaluation Report-U.S. Department of the Interior's (DOl) Underground
Injection Control (UIC) Activities; Report No. CR-EV-MOA-0006-2012.

Reclamation is committed to complying with EPA's regulations and protecting our Nation's
resources. As such, Reclamation will take a two pronged approach to address both new and
existing UIC Class V wells. The first approach will establish requirement to ensure no new
banned UIC Class V wells are constructed. The second approach will establish requirements to
ensure existing UIC Class V wells are in compliance and banned UIC Class V wells are closed.
This will be accomplished through actions identified in Reclamation's responses to
Recommendations 1-4 listed below.

Response to OIG Recommendations

Recommendation 1: Develop and implement policies, procedures, and plans to include
consistently identifying, authorizing, inspecting, and managing UIC Class V wells to ensure
compliance with EPA's UIC regulations.

       Reclamation's Response: Concur. To address this recommendation, Reclamation will
       update Reclamation's Directives and Standards to include compliance with EPA's UIC
       Class V well regulations.

       Responsible Official: Roseann Gonzales, Director, Policy and Administration

       Target Implementation Date: September 30,2015.


Recommendation 2: Identify Class V underground injection wells and develop centralized
systems for tracking existing and new wells.

       Reclamation's Response: Concur. To address this recommendation, Reclamation will
       validate, update, and manage Reclamation's centralized listing ofUIC Class V wells
       based on the requirements established in Reclamation's Directives and Standards
       (Recommendation 1).

       Responsible Official: Roseann Gonzales, Director, Policy and Administration

                                                                                                1

                                                                                              29
       Target Implementation Date: June 30, 2016.

Recommendation 3: Develop and implement policies and procedures that will educate facility
managers on EPA's rules concerning Class V wells, ensure consistent reporting of new and
existing VIC Class V wells in accordance with EPA's regulations, and ensure compliance with
EPA's regulations by conducting reviews to verify reporting requirements are being met.

       Reclamation's Response: Concur. Reclamation will develop a training program to
       educate Reclamation's facility managers on EPA's rules concerning Class V wells,
       ensuring consistent reporting of new and existing UIC Class V wells in accordance with
       EPA's regulations. Reclamation's training program will include an initial overview of
       EPA's requirements followed with specific training on implementation, management, and
       oversight based on the requirements established in Reclamation's Directives and
       Standards. (Recommendation 1: Reclamation will update Reclamation's Directives and
       Standards to include compliance with EPA's UIC Class V well regulations).

       Reclamation will ensure compliance with EPA's regulations regarding UIC Class V wells
       by conducting reviews to verify reporting requirements are addressed in accordance with
       Reclamation's Directives and Standards. (Recommendation 1: Reclamation will update
       Reclamation's Directives and Standards to include compliance with EPA's UIC Class V
       well regulations).

       Responsible Official: Roseann Gonzales, Director, Policy and Administration

       Target Implementation Date: September 30, 2016, Reclamation will develop a training
       program to educate Reclamation's facility manager.

Recommendation 4: Immediately close any banned Class V injection wells.

       Reclamation's Response: Concur. Reclamation will work to identify and close all
       existing banned Class V injection wells in order to comply with EPA UIC regulations.

       In order to close banned Class V injection wells the current listing must be updated,
      evaluated, and inspected to determine operating status and validate that the current listing
      meets the Department and EPA's definitions and processes (Department
      Recommendation 1 & 2). Reclamation's timeline is dependent on the Department's
      action and timeline to: 1) Collaborate with the EPA to clarify the definition oflarge
      capacity cesspools to ensure consistency in application throughout the Department; and
      2) Determine the extent of resources available to close any banned Class V injection
      wells.

      During this time Reclamation will proceed with actions identified in Recommendation 2
      (Recommendation 2: Reclamation will validate, update, and manage Reclamation's
      centralized listing of Class V underground injection wells based on the requirements
      established in Reclamation's Directives and Standards). This will result in Reclamation


                                                                                                 2

                                                                                                30
taking action on any banned Class V injection wells in a timely manner, as resources
allow.

Reclamation will follow any Departmental policies in developing a process and timeline
to close any banned Class V injection wells based on the clarification and definition
provided by EPA and within Reclamation's contractual authority with its partners.


Responsible Official: Roseann Gonzales, Director, Policy and Administration

Target Implementation Date: 180 days following the issuance of Department policies
which established policies, procedures that include the clarification in definition of large
capacity cesspools to ensure consistency in application throughout the Department,
Reclamation will develop a process and timeline to close banned Class V injection wells.




                                                                                           3

                                                                                          31
                   United States Department of the Interior
                                 FISH AND WILDLIFE SERVICE
                                         Washington, D.C. 20240

In Reply Refer To:                         JAN 1 It 2014
FWS/DEN/056394

Memorandum

To:            Deputy Inspector General
               Office of the Inspector General
               Attn: Kimberly ElmoreJ              j
From:   pep~;\), Director&()~
Subject:       Draft Evaluation Report - U.S. Department of the Interior's Underground
               Injection Control Activities, Report No. CR-EV-MOA-0006-2012

The U.S. Fish and Wildlife Service (Service) appreciates the opportunity to review the "Draft
Evaluation Report - U.S. Department of the Interior's Underground Injection Control
Activities." As requested, the following information is provided in response.

Recommendation 1: Develop and implement policies, procedures, and plans to include
consistently identifying, authorizing, inspecting and managing Underground Injection Control
(UIC) Class V wells to ensure compliance with the U.S. Environmental Protection Agency's
(EPA) UIC regulations.

Response: We partially concur. The Service has policy and an environmental compliance
program; however we can improve on the policy, plans, and procedures. As indicated in our
response on March 27, 2013, the Service's policy prohibits the" .. .injection of any fluid in a well
that allows the movement of fluid containing a contaminant into underground sources of
drinking water .... " (561 FW 4 Safe Drinking Water Act). Specific environmental requirements
are contained in a separate document, The Environmental Assessment and Management (TEAM
Guide), which includes regulatory requirements applicable to UIC Class V wells (40 CFR 144),
and is the basis for environmental compliance audits.

UIC Class V wells on Service-managed land are constructed in compliance with the substantive
requirements of the UIC program. The Service obtains the necessary permits for septic leach
field installation as part of the building construction process, and complies with all applicable
State requirements for septic system construction. The permit authorizes construction of the
septic leach field system and provides confirmation that it is constructed in compliance with



                                                                                                 32
State requirements. Once constructed, the Service includes septic systems as part of building
inspections in our facility condition assessments, which are conducted on a five-year cycle. The
condition assessments ensure proper management of these systems.

In response to the Office of the Inspector General's (OIG) recommendation, the Service plans to
expand existing policy by adding specific UIC program requirements and their applicability, and
definitions that clarify the identification ofUIC Class V wells.



Recommendation 2: Identify Class V underground injection wells and develop centralized
systems for tracking existing and new wells.

Response: We partially concur. The Service agrees with the importance of identifying Class V
wells at the facility level. The Service is planning to migrate to an electronic environmental
compliance information repository for field station-specific environmental information. The
Service will evaluate the viability of including an indicator in the system to identify UIC wells at
our facilities. We expect that the information repository will be available in Fiscal Year 2015.



Recommendation 3: Develop and implement policies and procedures that will educate facility
managers on EPA's rules concerning Class V wells, ensure consistent reporting of new and
existing UIC Class V wells in accordance with EPA's regulations, and ensure compliance with
EPA's regulations by conducting reviews to verify reporting requirements are being met.

Response: We partially concur. The Service has policies in place and conducts training to
educate facility managers; however we can improve our coverage on Class V wells. The Service
conducts environmental compliance classroom training targeted to facility managers in each
Region at least once every three years. This training addresses the full range of environmental
compliance requirements applicable to the Service's operations. The Service also is developing
a course for distance learners to expand the audience reached by the training. The Service will
ensure that the requirements for UIC Class V wells are included in this and any other relevant
environmental compliance training. In addition, the Service will develop a fact sheet outlining
UIC program requirements and explore other training opportunities to ensure compliance with
EPA's regulations.

The Service's on-site environmental compliance audits are the most effective means to review
and verify the UIC information submitted by facility managers. The Service provides training
every two years for the Regional Environmental Compliance Coordinators (RECCs), who
conduct the environmental compliance audits. The Service will ensure that the upcoming
training in October 2014 includes a comprehensive section about the UIC program.



                                                                                                33
Recommendation 4: Immediately close any banned Class V injection wells.

Response: We do not concur. The Service has closed banned Class V wells. The draft report
refers to 54 "unreported floor drains." The Service would like to clarify that the list we provided
in March contained information about locations where floor drains were identified and
subsequently addressed. As stated in the Service's response dated March 27,2013, " ... since
2003, the Service has directed field stations to close floor drains in motor vehicle maintenance
facilities that flowed into the subsurface or to a septic system not designed to treat motor vehicle
wastes." The floor drains were not reported because they were closed.

In addition, the Service stated in our March response that we do not have locations where pit
toilets (i.e., large capacity cesspools) flow into the subsurface without treatment. The Service is
in compliance with these Class V well requirements.

If you have any questions or require additional information, please contact Andrea McLaughlin,
Division of Engineering, at 703-358-2596, or andrea mclaughlin@fws.gov .




                                                                                                 34
                          United States Department of the Interior
                                               NATIONAL PARK SERVICE
                                                    1849 C Street, N.W.
                                                   Washington, D.C. 20240
IN REPLY REFER TO:



Memorandum
                                                    FEg Q 6 2014

To:                  Assistant Inspector General for Audits, Inspection , and Evaluations

From :               Associate Director, Park Planning , Facilities and   Lan~~
Subject:             Office of Inspector General Draft Report entitled : U. S. Department of the
                     Interior's Underground Injection Control Activities
                     (Report No. CR-EV-MOA-0006-2012)

The attachment provide in response to the findings and recommendations included in the audit report
noted above. The recommendations and responses are as follows:

           Recommendation 1: "Develop and implement policies, procedures, and plans to include
           consistently identifying, authorizing, inspecting, and managing Underground Injection
           Control (UIC) Class V wells to ensure compliance with Environmental Protection Agency
           (EPA) UIC regulations. "

           NPS Response: With regard to policy, NPS will await policy direction from DOl and be prepared
           to carry through with supporting policies (i.e., Director's Order or other policy channel) that align
           with and support DOl 's direction on management of existing and new Class V wells. With regard
           to procedures and plans, the NPS Environmental Compliance and Response Branch (ECRB) ,
           within the NPS Facilities Management Division , is in the process of updating its NPS
           Environmental Audit Program Operating Guide (Audit Guide) and associated audit checklists to
           more fully address and emphasize the UIC requirements and to identify both compliance
           requirements and best management practices (BMPs) to fulfill and exceed the goals of the UIC
           program . This will include additional training for external and internal environmental auditors on
           how to identify Class V wells (and other types of wells covered by the UIC regulations), and how
           to verify and document compliance with the UIC requirements . We will also additional checklist
           questions that will help park staff identify and anticipate (prior to construction) the need to register
           newly constructed Class V wells.

           Responsible Official : Carl Wang , NPS      Target Date: NPS will await policy direction
                                                            from DOl

           Recommendation 2: "Identify Class V Underground Injection Wells and develop
           centralized systems for tracking existing and new wells."

           NPS Response: Consistent with the memo provided to OIG by NPS in March 2013, NPS has
           upgraded its Facility Management Software System (FMSS) to distinguish onsite wastewater
           treatment systems that meet the definition of a Class V UIC well. Based on this, NPS has
           identified 1273 wastewater systems documented in the FMSS that are potentially Class V
           wells. The NPS will work with the Regions and field units to confirm these assumptions to insure
           that all Class V wells are indeed accurately inventoried and document. Additionally, the NPS is in
           the process of providing detailed compliance assistance guidance to parks with Class V wells,
           consistent with our March 2013 planned actions. Moving forward , the ECRB and supporting
           Regional Environmental Coordinators will ensure that data on the existence of Class V wells is



                                                                                                                35
provided to external auditors prior to audit site visits to assist them with verifying and
documenting compliance.

There is qualification regarding the completeness of data regarding Class V wells that are
operated under NPS authority or oversight: The FMSS database provides internal controls for
Class V wells that are under the purview of the NPS Facilities Management Division . Entities
that hold oil & gas leases on NPS property, and may be operating Class V and other types of UIC
wells on NPS property with NPS oversight, are not under the authority of the Facilities
Management Division. In addition , the ECRB staff has offered its assistance in understanding the
UIC regulations and how to manage the issues within their purview.

Responsible Official : Mike Seibert                 Target Date: Attachment 1


Recommendation 3: "Develop and implement policies and procedures that will educate
facility managers on EPA's rules concerning Class V wells, ensure consistent reporting of
new and existing UIC Class V wells in accordance with EPA's regulations, and ensure
compliance with EPA's regulations by conducting reviews to verify reporting requirements
are being met."

NPS Response: In addition to updating its Audit Guide and providing additional training to
internal and external auditors, NPS will make conformance with UIC requirements and BMPs a
NPS Environmental Management Program emphasis through the NPS audit program FY 2014
through FY 2019 (it typically takes three to five years to complete audits of all NPS units). As part
of this program emphasis, NPS will develop compliance assistance materials and support
services for park staff managing Class V wells, directed and administered with contractor support
through the NPS Regional Environmental Coordinators. In addition, NPS will work with
appropriate points of contact within the NPS Facilities Management Division at all levels as well
as the Denver Service Center to ensure that staff designing , planning, and overseeing installation
of new Class V wells are prepared to ensure that they are installed and operated in full
conformance with EPA regulations and DOl and NPS policy. Consistent with our March 2013
memo we also continue outreach to the NPS Office of Public Health to ensure that OPH officers
and park water operators are aware of the UIC requirements .

Responsible Official : Carl Wang           Target Date: TBD


Recommendation 4: "Immediately close any banned Class V injection wells."

NPS Response: During FY 2013 , NPS completed an exhaustive review of known installations
that could be Class V wells and found that none constituted banned Class V injection
wells. However, NPS will maintain vigilance through its Environmental Audit Program,
Environmental Disposal Liability (EDL) Program , and other review opportunities to ensure that no
existing banned Class V wells remain operational on NPS lands.

Responsible Official : Carl Wang           Target Date: Completed

Should you have additional questions or need further information regarding the subject evaluation
report, please do not hesitate to contact Vera Washington , NPS Audit Liaison Officer at (202)354-
1960.




Attachments




                                                                                                 36
                  United States Department of the Interior
                                 OFFICE OF THE SECRETARY
                                    Washington , DC 20240                              TAKE PRIOr
                                                                                       INAMERICA
                                            : tt l> •   ..   ·"' ...   1./o
                                           ·P~l         1 T ·zbf!




MEMORANDUM

To:            Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations

From:          Nikolao Pula.~!/\?~
               Director of the Of~ce of Insular Affairs

Subject:       Draft Evaluation Report- U.S. Department of the Interior' s Underground
               Injection Control Activities, OIG Report No. CR-EV-MOA-0006-2012

The Office of Insular Affairs (OlA) has reviewed the Office of the Inspector General's (OIG)
drafl evaluation report entitled "U.S. Department of the Interior's Underground Injection Control
Activities" (Report). The Report identifies that the regulatory agency for underground injection
control (UIC) activities is the U.S. Environmental Protection Agency (EPA), and EPA created a
UIC Program and subsequent UJC regulations for which owners and managers of identified
classes of wells must comply. Additionally, the Report references EPA's outreach program for
compliance with EPA's UIC Program.

The Report on page 7 includes the statement that "OIA is unique in that it does not oversee or
participate in injection well activities in the territories unless asked to do so". Please note that
OlA's exclusion from UlC activities extends further in that OIA does not own, manage or
oversee any wells or UIC activities. Additionally, if an insular grantee requests and receives
financial assistance f{)r UIC activities from OIA ' s grant programs, the grantee certifies
compliance with all applicable Federal regulations, and EPA as the regulatory agency would
have primary authority for oversight of any UIC activities and for any educational/outreach
program EPA may undertake. However, in response to the Report's recommendation for OIA,
OIA is available to discuss with EPA how OIA may assist with EPA's outreach program related
to its UIC Program, and OIA has initiated communication with EPA officials.

Report Recommendation for OIA (Report page 11 ):

Work with EPA to develop an outreach program to include identifying, inspecting, and
manaKing U/C Class V wells to ensure compliance ·with EPA's UIC reKulations.

OIA Actions: As EPA is the primary agency for regulatory and oversight authority over UIC
activities and EPA has a UIC Program in etlect, OIA defers to EPA on the nature and extent of
an outreach program. OIA has initiated communication with EPA regarding outreach programs




                                                                                                  37
in the insular areas for compliance with EPA's UIA Program and whether OIA may be able to
assist.

Target Date: January 8, 20 14.

Status ofOIA Actions: OIA has initiated communications with EPA and any further discussion
is dependent upon EPA. Additionally, OIA defers to EPA regarding the nature of any outreach
program in the insular areas for EPA's UIC Program. Therefore, OJA determines that its actions
of initiating communication with EPA and OIA's availability for assistance to EPA are sufficient
to resolve and implement the recommendation.

Responsible OfA Official: Marina Tinitali, Accountability Policy & Audit Liaison Officer

lf you have any questions or require additional information, please do not hesitate to
communicate with me at (202) 208-4736 or N ikolao_Pula@ios.doi.gov. Or, please feel free to
communicate directly with Mr. Tom Bussanich, Director of Grants Management and Budget for
OIA at (202) 208-5947 or Tom_Bussanich@ ios.doi.gov, or Marina Tinitali, Accountability
Policy & Audit Liaison Officer for OIA at (202) 208-5920 or marina_tinitali@ios.doi.gov.




                                                                                              38
Appendix 3:
Status of Recommendations
The tables below summarize the status of the recommendations.

 PMB Recommendations                  Status             Action Required

                                                      Recommendations will
                                                      be referred to the
                              Resolved; not           Assistant Secretary for
           1 and 2
                              implemented.            Policy, Management and
                                                      Budget for tracking
                                                      implementation.


  BIA Recommendations                 Status             Action Required

                              Resolved and            No further action
        3, 4, 5, and 6
                              implemented.            required.



 BLM Recommendations                  Status             Action Required

                                                      Recommendations will
                                                      be referred to the
                              Resolved; not           Assistant Secretary for
        3, 4, 5, and 6
                              implemented.            Policy, Management and
                                                      Budget for tracking
                                                      implementation.


         USBR
                                      Status             Action Required
    Recommendations

                                                      Recommendations will
                                                      be referred to the
                              Resolved; not           Assistant Secretary for
        3, 4, 5, and 6
                              implemented.            Policy, Management and
                                                      Budget for tracking
                                                      implementation.




                                                                           39
FWS Recommendations          Status     Action Required

                                      Recommendations will
                                      be referred to the
                      Resolved; not   Assistant Secretary for
      3, 4, and 5
                      implemented.    Policy, Management and
                                      Budget for tracking
                                      implementation.


                                      We encourage the U.S.
                                      Fish and Wildlife Service
                                      to continue to identify
           6          Unresolved.
                                      Class V wells and close
                                      those that are identified
                                      as banned.


NPS Recommendations          Status     Action Required

                                      Recommendations will
                                      be referred to the
                      Resolved; not   Assistant Secretary for
     3, 4, 5, and 6
                      implemented.    Policy, Management and
                                      Budget for tracking
                                      implementation.




                                                            40
OIA Recommendations          Status       Action Required
                                      We request that the
                                      Office of Insular Affairs
                                      (OIA) provide us with
                                      the details of the
                                      contact they have
                                      initiated with
                                      Environmental
                                      Protection Agency
                      Resolved; not   (EPA) and encourage
         7
                      implemented.    OIA to continue to
                                      make overtures to the
                                      EPA that would form
                                      partnerships and result
                                      in benefitting all
                                      stakeholders through
                                      better management of
                                      underground injection
                                      control wells.




                                                             41
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
